November 8, 2007

MICHAEL K. PLUNKETT
ACTING VICE PRESIDENT, PRICING AND CLASSIFICATION

SUSAN M. PLONKEY
VICE PRESIDENT, CUSTOMER SERVICE

WALTER F. O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT:      Audit Report – Review of Postal Service First-Class Permit Reply Mail
              (Report Number MS-AR-08-001)

This report presents the results of our self-initiated audit of the U.S. Postal Service First-
Class Permit Reply Mail (PRM) (Project Number 06YG041MS000). We initiated this
audit based on concerns raised regarding potential preferential treatment given to a
large digital versatile disc (DVD) mailer. Our objective was to determine whether PRM
mailers’ mailpieces are processed in accordance with their approved classification and
pricing.

The Postal Service generally processes PRM mailpieces in accordance with their
approved classification and pricing, as outlined in the Domestic Mail Manual (DMM).
However, employees manually process approximately 70 percent of the approved First-
Class two-way DVD return mailpieces from one DVD rental company because these
mailpieces sustain damage, jam equipment and cause missorts during automated
processing. Nonmachinable mailpieces are subject to a surcharge. However, the DMM
does not currently address the characteristics of the mailer’s two-way DVD return
mailpiece that make it nonmachinable.

Because these mailpieces are not machinable, the Postal Service pays significant
additional labor costs to manually process them. We estimate the additional labor costs
to process these mailpieces were $41.9 million during the past 2 years, and will be
$61.5 million over the next 2 years. We will report this monetary impact of $103.4
million in our Semiannual Report to Congress as $41.9 million in unrecoverable costs
and $61.5 million in funds put to better use.

We recommended management revise the DMM’s Nonmachinable Criteria for First-
Class letter-size mail to identify additional nonmachinable characteristics and physical
standards for these mailpieces. We also recommended management notify affected
mailers that Postal Service Engineering must test the mailers’ two-way DVD return
mailpieces against the revised Nonmachinable Criteria to ensure the affected
mailpieces are machinable, or be subject to the $0.17 nonmachinable surcharge.
Should a mailer not make its mailpiece machinable, we recommended management
ensure Business Mail Entry Unit employees begin collecting the $0.17 per piece
nonmachinable surcharge.

Management was not responsive to the findings and recommendations because,
although they indicated agreement with the recommendations, they did not provide
actions to address the recommendations nor did management provide action
completion dates. Management has no initiatives in progress, completed, or planned to
address the issues in this report. Management’s comments and our evaluation of these
comments are included in the report.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert
Mitchell, Director, Sales and Service, or me at (703) 248-2100.




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Anita J. Bizzotto
    Pritha N. Mehra
    Jessica D. Lowrance
    George R. Laws
    Katherine S. Banks
Review of Postal Service                                                            MS-AR-08-001
 First-Class Permit Reply Mail


                                        INTRODUCTION
 Background                      The U.S. Postal Service delivers optical disks, digital
                                 versatile discs (DVDs), compact discs (CDs), and minidisks
                                 for on-line rental service companies such as Netflix, Inc.®,
                                 Blockbuster Online®, GameFly®, and Simply Audiobooks®,
                                 through the use of prepaid envelopes using the Business
                                 Reply Mail (BRM) and Permit Reply Mail (PRM) formats.
                                 Subscribers receive the DVDs or CDs through the mail,
                                 generally with 1-day delivery.

                                 These companies use the Postal Service for timely delivery
                                 of rented DVDs and CDs. For example, one DVD rental
                                 company operates more than 100 shipping centers
                                 throughout the U.S. and, on average, ships 1.6 million
                                 DVDs each day. Another DVD rental company ships DVDs
                                 via the Postal Service from 38 distribution centers in the
                                 U.S. Other companies have also entered the marketplace
                                 with similar product offerings, bringing increased revenue to
                                 the Postal Service.




 Outbound PRM two-way DVD
  mailpieces processed with
                       ®
 other First-Class Mail at the
 Houston, Texas, Processing                               Redacted
    and Distribution Center
  (P&DC), November 2, 2006.




                                 PRM is a mailer service which enables a permit imprint
                                 holder to receive First-Class Mail® and Priority Mail® back
                                 from customers by prepaying postage for reply pieces at the
                                 time of mailing. Mailers must distribute PRM pieces as part




                                                  1
Review of Postal Service                                                              MS-AR-08-001
 First-Class Permit Reply Mail


                                   of a discount First-Class Mail mailing and not through any
                                   other means.1

                                   On August 3, 2006, the Postal Service launched PRM to
                                   replace BRM because DVD mailpieces were not well-suited
                                   for the BRM classification. Mailers who use PRM are those
                                   who have close to 100 percent returns, such as DVD rental
                                   companies.

                                   Most PRM mailers currently use a two-way DVD mailpiece
                                   for shipping to and from the customer, where the envelope
                                   used to ship the DVD to the customer is converted and used
                                   to return the DVD to the rental company (referred to as the
                                   two-way DVD return mailpiece). One DVD rental company
                                   mailer places the DVD in the front of the envelope on its
                                   way to the customer, creating a hard leading edge on the
                                   mailpiece. On the return trip back to the rental company,
                                   the DVD ends up on the trailing edge when the envelope is
                                   converted by the customer. This is because the customer
                                   tears off the perforated cover of the envelope to expose the
                                   return address. The return address information is printed
                                   upside down relative to the original cover, meaning that the
                                   envelope must be rotated 180 degrees to be processed
                                   upright. After this rotation, the DVD is positioned on the
                                   trailing edge of the envelope, creating a leading flap that is
                                   referred to as a “floppy leading edge.”

                                   Regarding pricing, PRM DVD mailers present their mailings
                                   at a business mail entry unit, and most pay First-Class
                                   presort automation letter rates for outbound mailpieces.
                                   Postage for the return envelopes is prepaid at full First-
                                   Class Mail rates and is collected when the outbound pieces
                                   are mailed. Mailpieces that fail one or more of the
                                   nonmachinable criteria in the Domestic Mail Manual (DMM)
                                   are assessed a nonmachinable surcharge of $0.17 per
                                   piece.2

                                   The Postal Service has two ways of granting PRM
                                   authorizations. Mailers wishing to obtain individual mail
                                   entry site authorizations must apply for PRM through the
                                   Manager, Business Mail Entry (MBME) at the district office
                                   where the permit imprint account is held, and mailpieces
                                   must be approved by the local Mailpiece Design Analyst.
                                   Mailers seeking a national authorization must submit a
1
    DMM, Section 507.9.1.1 (updated May 14, 2007).
2
    DMM, Section 133.1.9 (updated May 14, 2007).


                                                     2
Review of Postal Service                                                             MS-AR-08-001
 First-Class Permit Reply Mail


                                 request to the Pricing and Classification Service Center
                                 (PCSC).

                                 Locally, if a mailpiece’s design cannot be authorized
                                 according to the DMM, the MBME informs the mailer in
                                 writing that the PCSC will make a determination. The letter
                                 sent by the MBME to the mailer should request that the
                                 mailer provide additional sample mailpieces to the MBME,
                                 along with a letter asking that these mailpieces be tested by
                                 Postal Service Engineering (Engineering) for automation
                                 letter-size rates. The MBME forwards the mailer’s letter and
                                 sample mailpieces to the PCSC for a determination. The
                                 PCSC then follows its normal authorization procedures
                                 (outlined below).

                                 The PCSC receives letter requests directly from mailers
                                 seeking a national authorization or from MBMEs seeking
                                 clarification for a local authorization. These requests
                                 include sample mailpieces to be tested. The PCSC reviews
                                 the mailpieces and determines whether to deny
                                 authorization or forward the sample mailpieces to
                                 Marketing’s Mailing Standards group, to Engineering, or to
                                 both for further review. Engineering notifies Mailing
                                 Standards and the PCSC of test results in writing, and the
                                 PCSC or Mailing Standards issues a ruling to the mailer.
                                 Marketing announces national authorizations in the Pricing
                                 & Classification Weekly Communication and any other
                                 media that reach the internal postal audience.

                                 To better understand how DVDs are processed, the Postal
                                 Service contracted with an outside consultant to study the
                                 mail characteristics and processing methods used by postal
                                 facilities that process DVD envelopes. This study, titled
                                 United States Postal Service (USPS) Mail Characteristics
                                 Study of DVD-by-Mail, includes cost and volume estimates
                                 that reflect the Postal Service’s current processing methods.
                                 Results of this study are discussed later in this report.

 Objective, Scope, and           See Appendix A.
 Methodology

 Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                 objective of this audit.




                                                  3
Review of Postal Service                                                                             MS-AR-08-001
 First-Class Permit Reply Mail


                                            AUDIT RESULTS
    Many Two-Way DVD               The Postal Service generally processes PRM mailpieces in
    Return Mailpieces              accordance with their approved DMM classification and
    Processed Manually,            pricing. However, approximately 70 percent3 of one DVD
    But Surcharge Not              rental company’s approved First-Class two-way return
    Assessed                       mailpieces4 are manually processed. The Postal Service
                                   manually processes such a significant number of these
                                   mailpieces because of the nonmachinability of the envelope
                                   design. This design uses a floppy leading edge, which often
                                   sustains damage, causes jams in equipment, and missorts
                                   during automated processing.

                                   The Postal Service has specific criteria in the DMM to
                                   determine whether letter mail is nonmachinable.5 Currently,
                                   the envelope design with the floppy leading edge meets
                                   these criteria, as none of the negative characteristics listed
                                   in the DMM specifically apply to this type of mailpiece.

                                   Additionally, in 2002, Postal Service Marketing’s
                                   Preparation and Standards6 group (Marketing) notified this
                                   DVD rental company that their two-way DVD return
                                   mailpiece was machinable, although Engineering had
                                   determined 2 weeks earlier that the same mailpiece was not
                                   automation-compatible. As a result, the mailer was not
                                   required to pay either the current $0.17 or older (prior to
                                   May 14, 2007) $0.13 nonmachinable surcharge.7

                                   Manually processing these mailpieces is costly to the Postal
                                   Service. We estimated that the costs to the Postal Service
                                   for this manual effort for the past 2 years were $41.9 million.
                                   If the Postal Service were to revise the DMM’s
                                   nonmachinable criteria8 to identify additional characteristics
                                   and physical standards for First-Class letter mailpieces with
                                   the same design and general characteristics as the current
                                   mailer, the Postal Service could reduce processing costs


3
  The OIG performed a statistical sample of 24 Postal Service sites that handle the DVD rental company’s return
mailpieces. Based on projections of the sample results, we estimate 70 percent of this company’s two-way DVD
returned mailpieces were processed manually.
4
  A return mailpiece is one that a customer is returning to the mailer.
5
  DMM 101, Physical Standards, Section 1.2, Nonmachinable Criteria.
6
  Marketing’s Preparation and Standards group has been renamed Mailing Standards and reports to the Vice
President, Pricing and Classification.
7
  On May 14, 2007, the Postal Service announced a rate change. DMM 133, Rates and Eligibility, Section 1.9,
Nonmachinable Surcharge, now requires a $0.17 surcharge for any nonmachinable mailpiece. Prior to May 14,
2007, the surcharge was $0.13 per piece (DMM 133.1.6, Footnote 3).
8
  DMM 101, Physical Standards, Section 1.2, Nonmachinable Criteria.


                                                         4
Review of Postal Service                                                                                MS-AR-08-001
 First-Class Permit Reply Mail


                                    and would have funds put to better use of $61.5 million over
                                    the next 2 years. (See Appendix B for details.)

    Manual Processing               In 2005, the Postal Service contracted with an outside
    Observed                        consultant to study the mail characteristics and processing
                                    methods used by Postal Service facilities that process
                                    two-way DVD mailpieces. The outside consultant
                                    concluded that the Postal Service manually processed
                                    77 percent of one of the large on-line DVD rental
                                    companies’ two-way DVD return mailpieces.

                                    Through observation and contact with 24 P&DCs, the U.S.
                                    Postal Service Office of Inspector General (OIG) estimates
                                    that 70 percent of this DVD rental company’s two-way DVD
                                    return mailpieces are manually processed, a figure slightly
                                    lower than the outside consultant’s 77 percent. Both the
                                    outside consultant and the OIG observed that the two-way
                                    return mailpieces are diverted at various points throughout
                                    the mailstream and processed manually rather than being
                                    processed by automation, as required by two-way DVD
                                    classification and pricing.

                                    At the P&DCs where the OIG observed two-way DVD mail
                                    processing, we found operations personnel manually taking
                                    two-way DVD return mailpieces from the initial rough cull;9
                                    from the Advanced Facer-Canceller System machine; and
                                    at other points during processing operations for later
                                    facing10 and placing them in trays at the end of the shift.
                                    Western Area management issued a standard operating
                                    procedure (SOP) directing delivery and operations
                                    employees to isolate all two-way DVD return mailpieces
                                    from the mailstream before they enter the plant for
                                    processing. At the Denver P&DC, we found that even with
                                    an SOP to isolate all two-way DVD return mailpieces before
                                    they arrive at the plant, operations personnel still removed
                                    PRM mailers to be faced and placed in trays at the end of
                                    the shift. At the Queens, NY P&DC, we found a sign
                                    instructing operations personnel to pull out one DVD rental




9
  Culling refers to removing, by hand, nonletter mail (such as small parcels, rolls, and odd-shaped material) from
letter mail, and nonmachinable mailpieces from automation rate pieces.
10
   Facing refers to arranging mail in a uniform orientation with the delivery address facing forward and the postage
stamp, meter stamp, or permit imprint positioned in the upper right corner.


                                                           5
Review of Postal Service                                                            MS-AR-08-001
 First-Class Permit Reply Mail



                                 company’s return mailpieces from collection mail. The OIG
                                 did not observe any other PRM mailer’s two-way DVD
                                 return mailpieces being manually processed as much as
                                 this specific mailer’s pieces were manually processed.

                                 At the P&DCs where the OIG observed Postal Service
                                 processing of two-way DVD mailers, operations personnel
                                 told the OIG that the return mailpieces were manually pulled
                                 to avoid damaging the mailpiece, jamming the mail
                                 processing equipment, and missorting during processing.




   After being removed from
     the mailstream, PRM
   mailpieces at the Denver                               Redacted
    P&DC await facing and
 placing in trays, November 8,
              2006.




                                 The outside consultant’s study also noted:

                                       “Often employees cull the easily identifiable
                                       bright colored envelopes from the automated
                                       mail stream. Some supervisors in mail
                                       processing facilities believe these pieces will not
                                       run correctly on automation machinery based on
                                       their experiences working with this equipment, or
                                       feel that the risk of damage, mis-sorts, or rejects
                                       justifies their removal from the automated
                                       processing stream. It was not unusual to see
                                       containers of separated return DVDs at points
                                       throughout the mail processing flow.”

 Improper Notification           On June 11, 2002, Engineering issued a letter to the DVD
 Letter Provided                 rental company regarding the test results of their two-way
                                 DVD mailpiece. Engineering concluded that the return
                                 portion of the two-way envelope used by this mailer was not



                                                 6
Review of Postal Service                                                                                 MS-AR-08-001
 First-Class Permit Reply Mail


                                    automation compatible because “the pieces did not stack
                                    correctly” and “many pieces. . . had the flimsy end fold over
                                    and covered the address information.” The letter did not
                                    address machinability.

                                    In response to Engineering’s letter, on June 17, 2002, the
                                    mailer sent an e-mail questioning Engineering’s
                                    determination. On June 24, 2002, Marketing responded to
                                    the mailer with a letter stating that although their two-way
                                    DVD return mailpieces were “not completely automation-
                                    compatible, [they] were machinable.” The letter also stated,
                                    “return pieces tested would not be subject to the
                                    nonmachinable surcharge effective June 30, 2002, for
                                    mailpieces that must be handled manually.”

                                    Marketing’s June 24, 2002, letter negated Engineering’s
                                    determination that the mailpieces were not automation-
                                    compatible by stating that this DVD mailer’s return
                                    mailpieces, “although not completely automation-
                                    compatible, were machinable.” By adding the phrase
                                    “although not completely,” Marketing not only changed
                                    Engineering’s earlier determination that this DVD mailer’s
                                    return mailpieces sent in for testing “were not automation
                                    compatible,” but also made a determination on machinability
                                    without performing flexibility testing on the mailpiece. The
                                    DMM11 states that Engineering, not Marketing, is
                                    responsible for advising mailers of its findings (by letter)
                                    regarding the results of flexibility testing.

                                    The OIG asked Engineering representatives for all copies of
                                    the 2002 testing results, but were told that none existed.
                                    Engineering officials told the OIG they did not know of any
                                    separate testing that Marketing conducted on the subject
                                    mailpieces in order to arrive at their conclusion. We
                                    questioned both Marketing and Engineering officials about
                                    whether the return mailpieces were machinable. Marketing
                                    asserts – and Engineering denies – that Engineering
                                    advised Marketing that the return mailpieces were
                                    machinable.

                                    In addition, in December 2005, Postal Service Engineering
                                    conducted testing on a two-way DVD mailpiece submitted
                                    by another DVD rental company that was similar to the one

11
   DMM 201, Section 3.11.2 states in part: “A mailer wanting to have mailpieces tested for flexibility must submit at
least 50 sample pieces and a written request to USPS Engineering. . . .The request must describe mailpiece
contents. . . and Engineering advises the mailer by letter of its findings.”


                                                           7
Review of Postal Service                                                           MS-AR-08-001
 First-Class Permit Reply Mail


                                 used by the aforementioned DVD rental company.
                                 Engineering determined that the return portion of this other
                                 company’s DVD mailer was nonmachinable. In a December
                                 28, 2005, letter to the company, Engineering noted the
                                 similarities between the two companies’ DVD mailpieces,
                                 stating:

                                    “It should be noted that Engineering tested a similar
                                    mailpiece in 2002 and in a letter dated June 11 of that
                                    year, informed [a DVD rental company] that the
                                    mailpiece was not automation compatible. The samples
                                    submitted by [the other company] have not been
                                    modified in any way that would significantly improve
                                    machinability. . . . In a sense, this mailpiece design is
                                    being tested everyday throughout the Postal system
                                    with very poor results. Engineering’s ongoing
                                    experience with the poor machinability of [the DVD
                                    rental company’s] mailers indicates that the [current]
                                    design will sustain damage, cause jams and be mis-
                                    sorted during processing. This will lead operations
                                    personnel to divert the mailers from the automation mail
                                    stream and handle them manually. Based on current
                                    experience, the test performed and the tabbing
                                    deficiencies noted, Engineering finds [the other
                                    company’s] two-way DVD mailer is not machinable.”

                                 Engineering’s determination that the other DVD rental
                                 company’s mailpiece is nonmachinable is inconsistent with
                                 Marketing’s determination that the DVD rental company’s
                                 identical mailpiece is machinable. The Postal Service
                                 should give consistent treatment to two mailpieces with the
                                 same characteristics. Inconsistent treatment of mailpieces
                                 with the same characteristics may lead mailers to perceive
                                 that the Postal Service shows favoritism towards some DVD
                                 rental service companies.

 DMM Nonmachinable               The DMM does not address characteristics that make the
 Criteria Needs                  DVD rental company’s two-way return mailpiece
 Revision                        nonmachinable.

                                 DMM, Section 101 gives criteria for identifying mailpieces
                                 that are subject to the nonmachinable surcharge. The
                                 following guidance was in effect at the time Marketing
                                 determined the mailpiece to be machinable:




                                                  8
Review of Postal Service                                                            MS-AR-08-001
 First-Class Permit Reply Mail



                                    •   DMM, Section 101.6.4.1: Letter-size pieces that
                                        weigh 1 ounce or less and meet one or more of the
                                        nonmachinable characteristics in section 1.2 are
                                        subject to the nonmachinable surcharge (see section
                                        133.1.9).

                                    •   DMM, Section 101.1.2: A letter-size piece is
                                        nonmachinable if it has one or more of the following
                                        characteristics, including:

                                           a) An aspect ratio (length divided by height) of
                                              less than 1.3 or more than 2.5.

                                           b) Is polybagged, polywrapped, or enclosed in
                                              any plastic material.

                                           c) Has clasps, strings, buttons, or similar closure
                                              devices.

                                           d) Contains items such as pens, pencils, or loose
                                              keys or coins that cause the thickness of the
                                              mailpiece to be uneven.

                                           e) Is too rigid (does not bend easily when
                                              subjected to a transport belt tension of
                                              40 pounds around an 11-inch diameter turn).

                                           f) For pieces more than 4-1/4 inches high or
                                              6 inches long, the thickness is less than
                                              0.009 inch.

                                           g) Has a delivery address parallel to the shorter
                                              dimension of the mailpiece.

                                           h) Is a self-mailer with a folded edge
                                              perpendicular to the address if the piece is not
                                              folded and secured.

                                           i) Booklet-type pieces with the bound edge
                                              (spine) along the shorter dimension of the
                                              piece or at the top.

                                 Although the DVD rental company’s two-way DVD return
                                 mailpiece adheres to the DMM machinability criteria listed
                                 above, Engineering’s testing of this and similar mailpieces



                                                  9
Review of Postal Service                                                           MS-AR-08-001
 First-Class Permit Reply Mail


                                 has consistently shown that this type of mailpiece is not
                                 machinable. Engineering has noted that mailpieces with
                                 this design “will sustain damage, cause jams, and be
                                 missorted.” The OIG, through observations of DVD
                                 mailpiece processing conducted at 10 P&DCs, also found
                                 this specific two-way DVD mailpiece was likely to become
                                 damaged, jam equipment, and be missorted during
                                 automated processing.

                                 Based on Engineering’s conclusions about the PRM
                                 two-way DVD mailpieces, the Postal Service should revise
                                 the DMM to identify additional nonmachinable
                                 characteristics and physical standards for First-Class
                                 letter-size mail. If affected mailers choose not to redesign
                                 their two-way DVD mailpiece the Postal Service should
                                 impose nonmachinable surcharges of $0.17 per piece.

 Recommendations                 We recommend the Acting Vice President, Pricing and
                                 Classification:

                                 1. Coordinate with the Vice President, Engineering, on a
                                    Domestic Mail Manual (DMM) revision to the
                                    Nonmachinable Criteria DMM, Section 101.1.2 in order
                                    to identify additional nonmachinable characteristics and
                                    physical standards for First-Class letter-size mail with
                                    the same design and general characteristics of the
                                    mailpiece with the floppy leading edge.

                                 2. Notify affected mailers that their two-way Digital Video
                                    Disk return mailpieces must be tested by Postal Service
                                    Engineering against the revised Nonmachinable Criteria
                                    DMM, Section 101.1.2 to ensure that the affected
                                    mailpieces are machinable, or be subject to the $0.17
                                    nonmachinable surcharge.

                                 We recommend the Vice President, Customer Service:

                                 3. Ensure that Business Mail Entry Unit employees begin
                                    collecting the $0.17 per piece nonmachinable surcharge
                                    for all affected mailpieces if mailers do not alter their
                                    mailpieces.

 Management’s                    In response to recommendation 1 management stated that
 Comments                        in the last year 742 million pieces of Permit Reply Mail
                                 comprised only 0.77% of more than 96 billion pieces of
                                 First-Class Mail. Management agreed that machinability


                                                 10
Review of Postal Service                                                            MS-AR-08-001
 First-Class Permit Reply Mail


                                 standards need to be reexamined periodically, but
                                 cautioned that it must also consider how any DMM changes
                                 would affect all users of the mail. Additionally, management
                                 stated that the specific changes envisioned by this audit
                                 could have implications for other customers that are not yet
                                 properly understood. In addition to cost, the Postal Service
                                 is greatly concerned with the possible negative impact on
                                 affected customers if a DMM change results in a substantial
                                 price increase.

                                 Concerning recommendation 2, management agreed to test
                                 DVD return mailpieces “against DMM standards when and if
                                 those standards are altered.” In response to
                                 recommendation 3, management stated that “customers
                                 who mail pieces that do not conform to current DMM
                                 standards should pay the nonmachinable surcharge.”

                                 Management also had a comment regarding the following
                                 statement in Appendix A of our report: “We did not assess
                                 the reliability of the Corporate Business Customer
                                 Information System (CBCIS) as part of our audit; therefore,
                                 we do not base our conclusions or recommendations solely
                                 on information in the database.” Management believes this
                                 statement conflicts with our use of CBCIS volume data in
                                 Appendix B.

                                 We have included management’s comments, in their
                                 entirety, in Appendix C.

 Evaluation of                   Although management agreed with our findings, their
 Management’s                    comments were not responsive to the findings and
 Comments                        recommendations. Management did not identify any actions
                                 it will take to address the issues raised in this report.

                                 Management’s comments misquote our first
                                 recommendation as a suggestion that the DMM be revised
                                 to “identify additional nonmachinable characteristics and
                                 physical standards for First-Class Mail letter-size mail.”
                                 Management omitted the rest of the recommendation, “with
                                 the same design and general characteristics of the
                                 mailpiece with the floppy leading edge,” and offered no
                                 indication that it would act to address the floppy leading
                                 edge problem identified in this report. Our recommendation
                                 to revise the DMM would not affect all First-Class mailers. It
                                 pertains only to mailpieces with a floppy leading edge,
                                 which sustain damage, cause jams in equipment, and


                                                 11
Review of Postal Service                                                             MS-AR-08-001
 First-Class Permit Reply Mail


                                 missort during automated processing. As for the impact on
                                 affected customers, rejecting similar mailpieces from other
                                 mailers, while allowing one mailer to continue using this
                                 mailpiece creates the appearance of favoring a large mailer
                                 over smaller ones.

                                 Agreeing to test DVD return mailpieces against DMM
                                 standards “when and if those standards are altered,” without
                                 having committed to altering the DMM, does not satisfy
                                 these recommendations.

                                 Regarding recommendation 3, management stated that
                                 customers who mail pieces that do not conform to current
                                 DMM standards should pay the nonmachinable surcharge.
                                 Our recommendation pertained to “affected mailpieces,”
                                 (mailpieces affected by the DMM revisions suggested in
                                 recommendation 1). In any case, management did not
                                 specify any action that it would take to collect the surcharge,
                                 under either current or revised DMM criteria.

                                 The OIG disagrees with management’s assertion of a
                                 conflict between information presented in Appendices A and
                                 B. Our statement in Appendix A means we did not conduct
                                 a review of data processing controls over the CBCIS.
                                 However, we tested the reasonableness of the CBCIS data.
                                 To test the reasonableness of projected return volume using
                                 CBCIS, we compared it to a separate projection using the
                                 mailer’s internal forecasted customer base for March 2007
                                 and the mid-point of its forecasted range of its customer
                                 base for December 2007.

                                 The results of the two forecasts were nearly identical, giving
                                 us reasonable assurance that we could use the data
                                 obtained from the CBCIS to support the monetary impact
                                 calculation.

                                 Note also that we estimated the unit cost of manual
                                 processing at $0.08146. Management’s response indicates
                                 that the unit cost is $0.11291. If management is correct, our
                                 monetary impact calculation is very conservative.




                                                  12
Review of Postal Service                                                           MS-AR-08-001
 First-Class Permit Reply Mail




 Additional Matter               The DMM gives the Postal Service’s complete mailing
 Needing                         standards. Customers and Postal Service employees
 Management’s                    depend on the DMM for information and guidance about
 Attention                       mailing. Further, the DMM attempts to give users all the
                                 information they need within a single section without
                                 referring users to different sections. Although one of the
                                 Postal Service’s goals is to reduce the need to refer to
                                 another section, in some circumstances, a reference directs
                                 a user to a different section.

                                 During our review of PRM guidance, we noted that
                                 clarification is needed to Section 9 of the DMM 507, which
                                 provides information on the PRM category and elements.
                                 Section 9.1.1 states that mailers must distribute PRM pieces
                                 as part of a discount First-Class mailing and not through any
                                 other means, but does not refer users to the PRM
                                 guidelines in DMM 200, Discount Mail Letters and Cards,
                                 and Section 230, First-Class Mail. Although it is the Postal
                                 Service’s goal to reduce the number of instances a user is
                                 referred out of a section, we believe it is important to give
                                 users an out-of-section reference to the section on discount
                                 First-Class Mail. This reference, when added to Section
                                 9.1.1, would give PRM mailers complete guidelines.

 Suggestion                      We suggest the Acting Vice President, Pricing and
                                 Classification, revise the DMM to include an out-of-section
                                 reference from the PRM section at 9.1.1 to DMM, Section
                                 230, First-Class Mail.




                                                 13
Review of Postal Service                                                      MS-AR-08-001
 First-Class Permit Reply Mail




                                    APPENDIX A

                     OBJECTIVE, SCOPE AND METHODOLOGY
We initiated this audit based on concerns raised regarding potential preferential
treatment given to a large DVD mailer. We determined whether PRM mailers’
mailpieces are processed according to their approved classification and pricing.

To accomplish our objective, we performed a walk-through of the PRM process (tracing
from permit to authorization to outbound to return of mail to automation compared to
manual sorting). We also reviewed applicable regulations, manuals, instructions, and
other supporting documentation relating to PRM, and its predecessor BRM, to evaluate
internal controls and the reliability and validity of data.

We interviewed Postal Service personnel for background information on DVD mailing
approvals and processes. We interviewed Postal Service officials at the PCSC to
determine their role in the process for mailers seeking approval to use PRM, especially
those who mail automation-compatible DVD and CD mailpieces. We also interviewed
industry officials for information on their distribution processes.

We visited 10 Postal Service facilities to observe the mailing of DVDs to determine how
they were processed, and contacted an additional 14 Postal Service facilities by
telephone to confirm their processing of DVDs.

We reviewed the November 2006 study, USPS Mail Characteristics Study of DVD-by-
Mail, developed by an outside consultant for the Postal Service, to determine why the
study was requested and how the Postal Service used the results.

We conducted this performance audit from September 2006 through November 2007 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 15, 2007, and
included their comments where appropriate. We did not assess the reliability of the
CBCIS as part of our audit; therefore, we do not base our conclusions or
recommendations solely on information in the database.




                                           14
Review of Postal Service                      MS-AR-08-001
 First-Class Permit Reply Mail



                                 APPENDIX B

 MONETARY IMPACT CALCULATION METHODOLOGY DESCRIPTION




                                 Redacted




                                     15
Review of Postal Service                               MS-AR-08-001
 First-Class Permit Reply Mail


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                  16
Review of Postal Service              MS-AR-08-001
 First-Class Permit Reply Mail




                                 17
Review of Postal Service              MS-AR-08-001
 First-Class Permit Reply Mail




                                 18
